HHS/OIG, Audit -"Audit of Nursing Homes and Denial of Payment Remedies - State of Michigan - October 1, 1999 Through September 30, 2001 - Michigan Department of Community Health"(A-05-03-00052)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Nursing Homes and Denial of Payment Remedies - State of Michigan - October 1, 1999 Through September 30,
2001 - Michigan Department of Community Health" (A-05-03-00052)
April 15, 2004
Complete
Text of Report is available in PDF format (179kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether mandatory denial of payment remedies for substandard quality of
care was applied to nursing homes that were not in substantial compliance with the prescribed Medicaid participation requirements
and to evaluate whether State controls were adequate to prevent improper Medicaid payments to nursing homes under the denial
of payment remedy.  Our audit included denial of payment sanctions, which were in effect or should have been in effect
from October 1, 1999 to September 30, 2001.  From a statistical sampling of 100 payments to nursing homes under sanction,
we found 24 unallowable payments to 15 homes, totaling $31,598 ($17,564 Federal share).  Based on the results of the
statistical sample, we estimate unallowable Medicaid payments of $509,670 (Federal share $280,879) were made to nursing
homes under the denial of payment sanction.  We recommended the State refund reported overpayments, identify and refund
additional overpayments, and implement procedures to ensure unallowable payments to providers are suspended timely.  State
agency officials agreed with the findings and generally agreed with all three recommendations.